CAPITAL CASE
DOCKET NO. ____________
IN THE SUPREME COURT OF THE UNITED STATES

RAY LAMAR JOHNSTON,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE ELEVENTH CIRCUIT COURT

PETITION FOR A WRIT OF CERTIORARI

David D. Hendry
Florida Bar Number 0160016
Law Office of the Capital Collateral Regional
Counsel – Middle Region
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
Phone No. (813) 558-1600 ext. 624
Fax No.
(813) 558-1601
hendry@ccmr.state.fl.us
Attorney of Record for Petitioner

QUESTIONS PRESENTED
1. Whether the Eleventh Circuit should have remanded or expanded the appeal
after new law and evidence developed. The Eleventh Circuit had limited the
appeal to the question of trial counsel's failure to call witness Diane Busch to
refute facts in the guilt and penalty phases and to establish mitigation. Hurst
v. Florida, 577 U.S. ___, 136 S. Ct. 616 (2016), intervened. In state court, Mr.
Johnston exhausted the Hurst issue and presented expert evidence that the
jury was misled contrary to Caldwell v. Mississippi, 427 U.S. 320 (1985). The
Eleventh Circuit refused to remand to the district court or expand the appeal
to reach the new claims.
2. Whether the Florida Supreme Court’s decision in State v. Poole, ___ So.3d
___, 2020 WL 3116597 (Fla. 2020)1, undermines the rationale of the Eleventh
Circuit in this case when the circuit court limited its scope of review and
when it affirmed the decision of the district court.

Opinion initially assigned to 292 So.3d 694, Fla. Jan. 23, 2020. It was subsequently withdrawn from
the bound volume and republished at ___ So.3d ___, 2020 WL 3116597, Fla., Jan. 23, 2020.
Rehearing was denied and clarification granted at ___ So.3d ___, 2020 WL 3116598, Fla., April 2,
2020, and assigned a designation by Westlaw as 2020 WL 1592953. However, the case designated as
2020 WL 1592953 is also designated by Westlaw as “Republished at State v. Poole, ___ So.3d ___,
2020 WL 3116598, Fla., Apr. 02, 2020 (No. SC18-245),” an apparent circular reference back to the
citation appearing for the rehearing and clarification. On inquiry, Thompson Reuters attorney
editors advised counsel on August 19, 2020 that State v. Poole is preliminarily assigned citation 297
So.3d 487, subject to change, and will become final on Wednesday, August 26, 2020.
1

i

LIST OF PARTIES
All parties appear in the caption on the cover page.

CORPORATE DISCLOSURE STATEMENT
There are no corporations involved in this case.

ii

RELATED CASES
Judgment and Sentence to Death After Trial
1. State v. Johnston, Fla. Cir. Ct., Mar. 13, 2000, (NO. 97-13379)
Judgment Affirmed by:
2. Johnston v. State, 841 So.2d 349, Fla., Dec. 05, 2002, (NO. SC00-979), rehearing
denied (Mar. 13, 2003)
Post-Conviction Relief Denied by:
3. State v. Johnston, Fla. Cir. Ct., July 21, 2017, (NO. 97-CF-013379), rehearing
denied, Fla. Cir. Ct., Aug. 17, 2017, (NO. 97-CF-013379)
Denial of Post-Conviction Relief Affirmed by:
4. Johnston v. State, 63 So.3d 730, Fla., Mar. 24, 2011, (NO. SC09-780, SC10-75),
rehearing denied (Jun. 03, 2011)
Federal Habeas Corpus Proceedings
Habeas Corpus Denied by:
5. Johnston v. Secretary, Florida Department of Corrections, judgment entered on
Sept. 8, 2014, M.D. Fla., (NO. 8:11-cv-2094-T-17TGW)
Denial of Habeas Corpus Affirmed by:
6. Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619, 11th Cir.
(Fla.), Feb. 03, 2020, (NO. 14-14054)
Intervening State and Federal Proceedings after Hurst
Successive Post-Conviction Motion Seeking Hurst relief denied by:
7. State v. Johnston, Fla. Cir. Ct., July 21, 2017, (NO. 97-CF-013379), rehearing
denied, Aug. 17, 2017, (NO. 97-CF-013379)
Denial of Post-Conviction Relief Affirmed by:
8. Johnston v. State, 246 So.3d 266, Fla., Apr. 05, 2018, (NO. SC17-1678), rehearing
denied, Fla., July 03, 2018, (NO. SC17-1678)
Certiorari Denied by:
9. Johnston v. Florida, 139 S. Ct. 481, U.S. Fla., Nov. 13, 2018, (NO. 18-5793),
rehearing denied, 139 S. Ct. 871, U.S. Fla., Jan. 07, 2019, (NO. 18-5793)

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .ii
CORPORATE DISCLOSURE STATEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .ii
RELATED CASES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF CONTENTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .iv
INDEX OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v-vi
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii-ix
PETITION FOR WRIT OF CERTIORARI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS AND ORDERS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
REASONS FOR GRANTING THE PETITION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
QUESTION ONE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
THE RELATIONSHIP BETWEEN CALDWELL, RING, HURST, STRICKLAND,
THE TWO ISSUES BEFORE THIS COURT, AND THE NEED FOR A REMAND TO
THE DISTRICT COURT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8-9
WITNESS DIANE BUSCH. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
QUESTION TWO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .30
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

iv

INDEX OF APPENDICES
APPENDIX A: 02/03/2020 United States Court of Appeals, Eleventh Circuit
Opinion, Johnston v. Sec’y, Fla. Dep’t of Corr., 949 F.3d 619 (11th Cir. 2020) . .App 1
APPENDIX B: 11/06/2019 United States Court of Appeals, Eleventh Circuit Order
denying Motion for Reconsideration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App 23
APPENDIX C: 4/13/2017 Letter and Trial Practices, Inc. Report -- Caldwell Content
Analysis of the Johnston Trial Transcripts (Dr. Harvey Moore) . . . . . . . . . . . . App 27
APPENDIX D: 03/03/2016 Petitioner’s Motion for Stay and Abeyance of this Case
Pending the Florida Supreme Court’s Ruling on the Implications of Hurst v. Florida
to the United States Circuit Court of Appeals, Eleventh Circuit. . . . . . . . . . . . App 53
APPENDIX E: 03/10/2016 United States Court of Appeals, Eleventh Circuit Order
denying Motion to Stay Pending the Ruling of Hurst v. Florida. . . . . . . . . . . . App 61
APPENDIX F: 05/05/2017 United States Court of Appeals, Eleventh Circuit
Memorandum. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .App 63
APPENDIX G: 01/11/2019 Petitioner’s Motion to Remand Case to the Florida Middle
District to Permit Addition of Hurst Claim, or, in the alternative, Motion for
Opportunity to Move to Expand the Current COA and for Supplemental Briefing on
Hurst v. Florida to the United States Court of Appeals, Eleventh Circuit. . . . .App 65
APPENDIX H: 10/07/2019 United States Court of Appeals, Eleventh Circuit
Memorandum Scheduling Oral Argument. . . . . . . . .. . . . . . . . . . . . . . . . . . . . .App 73
APPENDIX I: 10/09/2019 United States Court of Appeals, Eleventh Circuit Order
denying Motion to Remand to district court and denying Motion to Stay pending the
Florida Supreme Court’s ruling on the implications of Hurst v. Florida. . . . . .App 75
APPENDIX J: 10/11/2019 Petitioner’s Motion for Reconsideration of the Denial of
the Motion to Remand Case to the Florida Middle District Court to Permit Addition
of a Hurst Claim, or, in the alternative, Motion for Opportunity to Move to Expand
the Current COA and for Supplemental Briefing on Hurst v. Florida. . . . . . .App 77
APPENDIX K: 06/14/2017 Hillsborough County Circuit Court Amended Order
granting State’s Motion to Strike Defendant’s Witness/Exhibit List and Attachment
and Order Striking June 15, 2017 Evidentiary Hearing. . . . . . . . . . . . . . . . . . App 90
APPENDIX L: United States Court of Appeals, Eleventh Circuit Order denying
Petition for Rehearing and Petition for Rehearing En Banc. . . . . . . . . . . . . . . App 172

v

APPENDIX M: 04/17/2014 United States District Circuit Court, Florida Middle
District Order denying petition for habeas corpus. . . . . . . . . . . . . . . . . . . . . . . App 174
APPENDIX N: 11/13/2018 Supreme Court of the United States Order denying
petition for writ of certiorari (Hurst claim). . . . . . . . . . . . . . . . . . . . . . . . . . . . .App 331
APPENDIX O: 04/05/2018 Florida Supreme Court Opinion, Johnston v. State, 246
So.3d 266 (Fla. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App 333
APPENDIX P: 07/21/2017 Hillsborough County Circuit Court Order denying Hurst
relief. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .App 336
APPENDIX Q: 08/30/2019 United States Court of Appeals, Eleventh Circuit
Opinion, Knight v. Fla. Dep’t of Corr., 396 F.3d 1322 (11th Cir. 2019). . . . . . .App 351
APPENDIX R: 04/02/2020 Florida Supreme Court Opinion, State v. Poole, --- So.3d
---, 2020 WL 3116597 (Fla. 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .App 364

vi

TABLE OF AUTHORITIES
CASES

Page(s)

Caldwell v. Mississippi,
472 U.S. 320 (1985). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .passim
California v. Ramos,
463 U.S. 992 (1983). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Chapman v. California,
386 U.S. 18 (1967). .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . 17
Davis v. State,
207 So. 3d 142 (Fla. 2016). . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16, 17
Frye v. United States,
293 F. 1013 (D.C. Cir. 1923). . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .18, 19
Glossip v. Gross,
576 U.S. ___, 135 S. Ct. 2726 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39
Hurst v. Florida,
577 U.S. ___, 136 S. Ct. 616 (2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .passim
Hurst v. State,
202 So. 3d 40 (Fla. 2016). . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . passim
In re: Amendments to the Florida Evidence Code,
210 So. 3d 1231 (Fla. 2017). . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Johnston v. Florida,
139 S. Ct. 481 (2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 12
Johnston v. Sec’y, Fla. Dep’t of Corr.,
949 F.3d 619 (11th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
Johnston v. State,
841 So. 2d 349 (Fla. 2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 33
Johnston v. State,
63 So. 3d 730 (Fla. 2011). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

vii

Johnston v. State,
246 So. 3d 266 (Fla. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Knight v. Fla. Dep’t of Corr.,
936 F.3d 1322 (11th Cir. 2019). . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . .12, 39
Reynolds v. State,
521 So. 3d 811 (Fla. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Reynolds v. Florida,
586 U.S. ___, 139 S. Ct. 27 (2018). ... . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .passim
Ring v. Arizona,
536 U.S. 584 (2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
Sears v. Upton,
561 U.S. 945 (2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29
State v. Poole,
___ So. 3d ___, 2020 WL 3116597 (Fla. 2020). . . . . . . . . . . . . . . . . .. . . . . . passim
United States v. Gonzalez-Lopez,
548 U.S. 140 (2006). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .18
STATUTES
28 U.S.C. § 1254. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
LAW REVIEW ARTICLES
Content Analysis – A New Evidentiary Technique, University of Chicago Law
Review, Vol. 15 No. 4, pp. 910-925 (Summer of 1948). . . . . . . . . . . . . . . . . . . . . . . . 22
Systemic Content Analysis of Judicial Opinions, 96 Cal. L. Rev. 63 (2008) . . . .22, 24
Taking Caldwell v. Mississippi Seriously: The Unconstitutionality of Capital
Sentencing Statutes That Divide Responsibility Between Judge and Jury, 30 B.C. L.
Rev. 283 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23
CONSTITUTIONAL PROVISIONS
U.S. Const. Amend. V. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 25
U.S. Const. Amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
viii

U.S. Const. Amend. VIII . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. Amend. XIV. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

ix

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS AND ORDERS BELOW
The opinion of the court of appeals (Appendix A) is reported at 949 F.3d 619.
The order of November 6, 2019, (Appendix B) denying the motion to reconsider the
motion to expand the appeal or remand the proceedings to the Middle District of
Florida to address the new Hurst and Caldwell claims is not reported. The district
court’s order denying the amended petition for a writ of habeas corpus (Appendix M)
is unreported.
JURISDICTION
The opinion of the court of appeals issued on February 3, 2020. On March 19,
2020, this Court entered an order extending the deadline for filing a petition for a
writ of certiorari to 150 days because of the COVID-19 pandemic. On March 24,
2020, the circuit court denied Mr. Johnston’s petition of panel rehearing and
rehearing en banc. The time within which to file a petition for a writ of certiorari in
this case extends to and includes August 21, 2020.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment provides in relevant part: “No person shall be . . .
deprived of life, liberty, or property without due process of law.”

1

The Sixth Amendment provides in relevant part: “In all criminal
prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury.”
The Eighth Amendment provides in relevant part: “[C]ruel and unusual
punishments [shall not be] inflicted.”
The Fourteenth Amendment provides in relevant part: “No State shall . . .
deny to any person within its jurisdiction the equal protection of the laws.”
STATEMENT OF THE CASE
Mr. Johnston was sentenced to death under Florida’s unconstitutional juryadvisory scheme which was later disapproved in Hurst v. Florida, 577 U.S. ___, 136
S. Ct. 616 (2016). Johnston v. State, 841 So.2d 349 (Fla. 2002). He proceeded to
pursue postconviction claims in the original state court well before the Hurst
decision. These were denied and the denial was affirmed by the Florida Supreme
Court. Johnston v. State, 63 So.3d 730 (Fla. 2011).
Mr. Johnston then turned to the federal district court, where he challenged
the state courts’ denials of relief. The district court denied relief and denied
motions to issue a certificate of appealability. Mr. Johnston appealed to the
Eleventh Circuit and moved for a certificate of appealability from that court. The
Eleventh Circuit refused to hear claims relating to the fact that, after the verdict of
guilt and during the penalty phase testimony, the forewoman of the trial jury was
arrested for charges arising from a criminal proceeding less than a year prior to
trial. They also declined to hear a claim of ineffective assistance of trial counsel for

2

failure to pursue individual voir dire of eight jurors who said they had been aware
of the extensive, highly prejudicial, pretrial publicity.
However, the Eleventh Circuit did grant a certificate to review claims that
the state courts’ refusals to grant relief for trial counsel’s failure to investigate
whether Diane Busch could be called as a witness in the guilt and penalty phases of
trial were based on an unreasonable determination of the facts or contrary to, or an
unreasonable application of, clearly established federal law. Ms. Busch testified in
the post-conviction hearing to facts which would have negated the State’s theory
that the murder was committed for pecuniary gain and would have provided
substantial mitigation by showing Mr. Johnston to be a caring and honest
individual.
During the briefing on the claims under review, this Court issued its decision
in Hurst v. Florida, 577 U.S. ___ (2016), holding Florida’s capital sentencing scheme
to be unconstitutional. Mr. Johnston filed a successive state postconviction motion
in the state trial court. The Eleventh Circuit indicated it would not schedule oral
argument until Mr. Johnston’s successive Hurst motion was resolved.
Mr. Johnston presented his Hurst claim in the state circuit court. He
proffered evidence from an expert sociologist who found 65 instances where the jury
was told that its decision would not determine the outcome of sentencing,
establishing a clear constitutional deficiency under the principles of Caldwell v.
Mississippi, 427 U.S. 320 (1985). As a result,
Based on the socio-legal standard established in Caldwell v.
Mississippi we may conclude to a reasonable degree of sociological

3

certainty the jury which recommended a sentence of death for Mr.
Johnston in Johnston v. State was persuaded against the requisite
level of attention to its responsibility through comments made by the
court and prosecutor.
Appendix C (Letter of Harvey A. Moore, April 13, 2017) at pg. App 031.
The state circuit court refused to consider the expert testimony and denied
Hurst relief because the jury recommendation for death was unanimous and any
error was therefore purportedly harmless. The state circuit court also rejected the
Caldwell claim, but by non sequitor:
[T]he Court finds Hurst v. Florida did not address the Eighth
Amendment. The Court finds there is no Florida State Supreme Court
or United States Supreme Court precedent this Court must follow
asserting that the Eighth Amendment does or does not require
unanimity in jury capital sentencing recommendations. As such, no
relief is warranted upon [the Caldwell claim].
Appendix P (July 21, 2017 circuit court order denying Hurst relief at pg. App 346)
The Florida Supreme Court rejected the Hurst claim because the jury
recommendation was unanimous. It rejected the Caldwell claim citing to its
reasoning in Reynolds v. State, 251 So. 3d 811, 815 (Fla. 2018), cert. denied sub nom.
Reynolds v. Fla., 139 S. Ct. 27 (2018).
This Court denied Mr. Johnston’s petition for certiorari. Johnston v. Florida,
139 S. Ct. 481 (2018). Johnston was one of several cases denied certiorari the same
day as the lead case addressing Florida’s application of Hurst v. Florida, the
aforementioned Reynolds v. Fla., 586 U.S. ___, 139 S. Ct. 27 (2018).
In the Johnston denial, Justice Thomas concurred, citing to his written
concurrence in the denial of certiorari in Reynolds. Justice Sotomayor dissented,

4

citing to her written dissent in Reynolds. In her Reynolds dissent, Justice
Sotomayor reasoned that the Florida Supreme Court’s rejection of Hurst relief for
any defendant who had a unanimous recommendation of death required Supreme
Court review. She also reasoned that the Caldwell issue raised the reviewable
question of “whether the Florida Supreme Court’s harmless-error approach
[unanimous recommendations render any error harmless] is valid in light of
Caldwell.” Reynolds, 586 U.S. at ___, 139 S. Ct. at 35. (Sotomayor, J. dissenting).
After the completion of the Hurst proceeding, Mr. Johnston sought to have
the Eleventh Circuit remand the pending appeal to the district court to allow him to
pursue the Hurst and Caldwell claims in the district court. The Eleventh Circuit
Court refused and held oral argument on November 12, 2019. Although Mr.
Johnston’s counsel tried to open the door to argument on the Caldwell claim, the
panel required counsel to limit argument to the issues in the certificate of
appealability. The decision denying relief issued February 3, 2020, from the
Eleventh Circuit.
Two weeks before the Eleventh Circuit’s decision in this case, the Florida
Supreme Court issued its radical redaction of Hurst v. State, 202 So. 3d 40 (Fla.
2016) protections in State v. Poole, ___ So.3d ___, 2020 WL 3116597 (Fla. 2020)
(Appendix R). Poole removes from the jury the role of unanimously: finding whether
aggravating factors are sufficient to impose death; finding that they outweigh
mitigation; and recommending a sentence of death. According to Poole, the only
Constitutional requirement for a jury is "unanimously to find the existence of a

5

statutory aggravating circumstance beyond a reasonable doubt.” ___ So.3d at ___
(slip op. at 39), holding that is the standard Florida courts should apply to Hurst
claims, although a new state statute requires unanimity in all four steps in future
cases. The remaining decisions in death sentencing are assigned to the judge in the
Hurst v. Florida context.
In the Eleventh Circuit, the court found that Mr. Johnston was not
prejudiced by any failure of counsel. 949 F.3d at 647. With Poole, the calculus of
whether the Hurst and Caldwell claims should have been considered, and whether
prejudice arose from erroneous jury instructions -- doubly erroneous, first under the
Hurst v. State scheme, and then under the Poole scheme -- is fundamentally altered.
The Eleventh Circuit should have remanded to the district court to reevaluate its
entire decision under the radically altered state law.
This petition follows.
REASONS FOR GRANTING THE PETITION
QUESTION ONE
Whether the Eleventh Circuit should have remanded or expanded the appeal
after new law and evidence developed. The Eleventh Circuit had limited the
appeal to the question of trial counsel's failure to call witness Diane Busch to
refute facts in the guilt and penalty phases and to establish mitigation. Hurst v.
Florida, 577 U.S. ___, 136 S. Ct. 616 (2016), intervened. In state court, Mr.
Johnston exhausted the Hurst issue and presented expert evidence that the jury
was misled contrary to Caldwell v. Mississippi, 427 U.S. 320 (1985), The
Eleventh Circuit refused to remand to the district court or expand the appeal to
reach the new claims.
Mr. Johnston had an absolute right to have his Hurst/Caldwell claims
reviewed in the federal courts. Had the timing been different, Mr. Johnston would

6

have completed his state proceedings on the Hurst/Caldwell issues, and been free
to include them in his federal petition for habeas corpus. However, due to the
unsettled nature of the development of capital litigation issues, the state and
federal courts did not recognize that the sentencing procedure violated the United
States Constitution’s protection of the Sixth and Fourteenth Amendments and,
arguably, the Eighth Amendment, when Mr. Johnston was exhausting his
postconviction claims in the state and federal district courts.
The Hurst/Caldwell claims did not exist and therefore could not be
exhausted in state court until after the federal district court decision and partial
briefing had been completed in the Eleventh Circuit. Mr. Johnston moved to stay
and abate the Eleventh Circuit proceedings to allow him to pursue his claims in
state court. Appendix D, Motion for Stay and Abeyance (March 3, 2016). The
Eleventh Circuit denied the motion to the extent of filing the reply brief, Appendix
E, Order of March 10, 2016, but ultimately advised by memorandum that it would
not schedule oral argument until after completion of state proceedings. Appendix F,
Memorandum of May 5, 2017.
After the state proceedings concluded, Mr. Johnston moved to remand the
case to the federal district court to allow him to amend with the Hurst claim,
including the expert sociological evidence showing harmful Caldwell error in the
mal-instructions and the comments of court and prosecution to the jury. Counsel
argued that “Appellant would be seeking a COA on these . . . broader issues
concerning the constitutionality of the entire Florida capital sentencing scheme,

7

rather than just the current issues pending before this Court involving witness
Diane Busch.” Mr. Johnston argued in the alternative that the certificate of
appealability be expanded to allow argument on the Hurst claims. Appendix G,
Motion to Remand (Jan. 11, 2019).
Ten months later the Eleventh Circuit denied the motion and scheduled oral
argument for November 12, 2019. Appendices H and I, Order Setting Oral
Argument (October 7, 2019) and Order Denying Motion to Remand (Oct. 9, 2019).
Mr. Johnston then sought reconsideration of the motion to remand, arguing:
This case involves unique circumstances that warrant this
Court’s careful consideration of the rejected sociological scientific
evidence that Ray Johnston attempted to present in the Florida state
courts to establish that the trial errors that occurred in this case were
harmful rather than harmless beyond a reasonable doubt. Specifically,
following Hurst v. Florida, 136 S. Ct. 616 (2016), the Appellant sought
the assistance of sociologist and jury trial scientist Harvey Moore, Ph.
D. of Trial Practices, Inc. to evaluate whether certain errors at the
Johnston trial were harmful or harmless. Ultimately, after performing
a content analysis, Dr. Moore concluded that the errors were harmful
rather than harmless (see report attached) [included herein as
Appendix C]. This report was largely the Appellant’s focus of his
argument in the state courts in attempts to persuade the courts that
the Hurst errors were harmful rather than harmless.
The Supreme Court of Florida has continued to find Hurst errors
harmless beyond a reasonable doubt in all cases where the advisory
panel recommendation was unanimous (12-0 for death), including the
case at bar (see Johnston v. State, 246 So. 3d 266, 266 “Johnston
received a unanimous jury recommendation death and, therefore, the
Hurst error in this case is harmless beyond a reasonable doubt.”). Dr.
Harvey Moore’s report, attached to this motion, compellingly
illustrates that the Hurst errors at the Johnston trial were harmful
rather than harmless.
THE RELATIONSHIP BETWEEN CALDWELL,
RING, HURST, STRICKLAND, THE TWO ISSUES

8

BEFORE THIS COURT, AND THE NEED FOR A
REMAND TO THE DISTRICT COURT
The Appellant acknowledges that he is currently limited to the
two sole issues before this Court. But at the crux of his argument is the
issues of deficient performance and prejudice. Specifically, was Ray
Lamar Johnston prejudiced when trial counsel failed to call Diane
Busch as a witness to trial, and whether the lower court’s decision in
this regard was based on an unreasonable determination of facts, and
whether the state court decisions were contrary to, or were an
unreasonable application of clearly established federal law.
Following Hurst, the Appellant’s arguments on the two issues
before this Court have become much stronger. To make the strongest
argument possible in this case, the Appellant needs this Court (or the
District Court) to consider the contents of Dr. Moore’s attached report.
The Appellant’s position is that he was denied due process when the
state courts refused to consider the contents of Dr. Moore’s report.
At issue currently before this Court is whether Mr. Johnston
was prejudiced at trial. He certainly was. Not only did trial counsel fail
to call a vital witness to trial (Diane Busch), but the State of Florida’s
entire capital system, which was once thought to be constitutional at
the time of this trial, has been found unconstitutional by the United
States Supreme Court in Hurst. Mr. Johnston had a right for a jury to
consider the testimony of an available witness who would testify that
Mr. Johnston saved her life. Instead, Mr. Johnston was provided a
mere advisory panel who was informed unconstitutionally
approximately 65 times that they would not be making the decision of
whether Mr. Johnston would live or die, the trial judge would. In
addition to the prejudice resulting from the advisory panel failing to
hear the mitigating testimony of available witness Diane Busch, the
advisory panel was instructed in unambiguous terms that they would
not be responsible for the decision to sentence Mr. Johnston to death,
contrary to Caldwell and Hurst.
Following Hurst, properly instructed juries now make the life
and death decisions in capital cases in the State of Florida, not trial
judges. Also following Hurst, Florida juries’ decisions must now be
unanimous. Though this trial resulted in a unanimous
recommendation for death, it was the decision of a mere advisory
panel, not a constitutionally and properly instructed jury. Had just one
member of the advisory panel recommended life, Mr. Johnston would
have received Hurst relief from the State of Florida. It is the
Appellant’s position that until he is permitted to return to the District
Court to present the information contained within Dr. Moore’s report
9

(or at least have this Court consider the contents of Dr. Moore’s
report), he will not be permitted to make the strongest arguments
available against this unconstitutionally imposed death sentence.
Lack of diligence is not the reason for these issues not being
included in the Appellant’s 28 U.S.C §2254 Petition. Rather, lack of
availability of caselaw at the time of the filing of his §2254 Petition in
District Court is the reason. Hurst did not issue until 2016, long after
the filing of the §2254 Petition. Hurst holds that juries rather than
judges must make necessary factual findings [to] impose the death
penalty. “The Sixth Amendment requires a jury, not a judge, to find
each fact necessary to impose a sentence of death. A jury’s mere
recommendation is not enough.” Id. at 619. Although Hurst did not
specifically raise Caldwell concerns with the prior Florida jury
instructions, it said that advisory recommendations are not enough. It
is the appellant’s position that a properly instructed jury must make
the necessary factual findings in capital cases. The appellant only
received an improperly instructed advisory panel at his trial rather
than a properly instructed jury.
Had Mr. Johnston’s advisory panel heard the testimony of Diane
Busch, at least one of the members of the advisory panel would have
recommended life over death. Had Mr. Johnston’s advisory panel been
actual jury members who were constitutionally informed that they
were the actual decision makers at the penalty phase, the decision
would have been different. One cannot have confidence in the outcome
of this case under Strickland when the advisory panel’s decision was
diminished approximately 65 times at trial. “The defendant must show
that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Strickland at 694.
The current issues before this Court come into clear focus when
analyzed keeping the mandates of Hurst and Caldwell in mind.
Confidence in the outcome of this case for the failure to call Diane
Busch as a witness is clearly undermined considering that the advisory
panel’s role was undermined approximately 65 times at trial. The
Appellant once again requests a remand and the opportunity to
present his arguments and scientific evidence refuting harmless error
beyond a reasonable doubt in the district court.
....

10

This Court should reconsider its decision denying the motion to
remand this case back to the district court to permit him the
opportunity to amend his petition for writ of habeas corpus to include
his scientific evidence and arguments under Hurst and Caldwell. In
the alternative, the Appellant renews his request for an opportunity to
move to expand the current COA and for supplemental briefing on
Hurst v. Florida.
Appendix J, Motion for Reconsideration (October 11, 2019).
The panel denied the motion in a single perfunctory sentence, but one of the
judges wrote to recognize the Hurst/Caldwell issue raised here:
MARTIN, Circuit Judge, concurring in the result:
I recognize that we are bound by our precedent holding that
Hurst v. Florida, 577 U.S.___, 136 S. Ct. 616 (2016) is not retroactive.
See Knight v. Fla. Dep't of Corr., 936 F.3d 1322, 1337 (11th Cir. 2019).
For that reason, I concur in the Majority's decision to deny Mr.
Johnston's motion for reconsideration.
Nonetheless, I write separately because I share the concerns
expressed by Justice Sotomayor in her dissent from the denial of
certiorari in Reynolds v. Florida, 586 U.S._, 139 S. Ct. 27, 32-36 (2018)
(Sotomayor, J., dissenting from the denial of certiorari). Following the
Supreme Court's decision in Hurst, the Florida Supreme Court has
consistently concluded that any claim of error pursuant to Hurst is
harmless if the jury unanimously recommended a sentence of death.
See Reynolds v. State, 251 So. 3d 811,815,818 (Fla.) (per curiam). cert.
denied. 586 U.S._, 139 S. Ct. 27 (2018); Davis v. State, 207 So. 3d 142,
174-75 (Fla. 2016) (per curiam). It is particularly troubling that. "[b]y
concluding that Hurst violations are harmless [when] jury
recommendations were unanimous, the Florida Supreme Court
transforms those advisory jury recommendations into binding findings
of fact." Reynolds, 139 S. Ct. at 33 (Sotomayor, J., dissenting)
(quotation marks omitted). I therefore subscribe to Justice Sotomayor's
view that this line of cases from the Florida Supreme Court raises
substantial Eighth Amendment concerns and may be invalid under
Caldwell v. Mississippi, 472 U.S. 320, 105 S. Ct 2633 (1985), in which
the Supreme Court held "it is 'constitutionally impermissible to rest a
death sentence on a determination made by a sentencer who has been
led to believe that the responsibility for determining the
appropriateness of the defendant's death rests elsewhere.’” Reynolds,
139 S. Ct. at 33 (quoting Caldwell, 472 U.S. at 328-29, 105 S. Ct. at
11

2639); see id. at 35("I would grant review to decide whether the Florida
Supreme Court's harmless-error approach is valid in light of
Caldwell."). Like Justice Sotomayor, I believe "the stakes in capital
cases are too high to ignore such constitutional challenges." Id.
(quotation marks omitted). So, while I concur in the denial of Mr.
Johnston's motion for reconsideration, I am concerned that this
precedent raises serious constitutional concerns for petitioners
asserting Hurst claims.
Appendix B (pg. App 025-026), Order of November 6, 2019 at 2-3, Martin, J.,
concurring in result.
Judge Martin indicates the reason the court did not remand was because
Hurst was not retroactive for purposes of federal review, citing to Knight v. Fla.
Dep't of Corr., 936 F.3d 1322, 1338 (11th Cir. 2019)(Appendix Q). The Knight court
rejected federal review of a Hurst claim because, despite the Florida Supreme
Court’s retroactive application under state law, federal retroactivity principles did
not permit retroactive application for federal review. Knight is currently docketed in
this Court, Knight v. Fla. Dep't of Corr., No.19-8341 (U.S. - state’s brief in
opposition filed June 25, 2020). Thus, the question of remand to the district court in
this case hinges in part on the outcome of the federal retroactivity issue pending on
the Knight petition in this Court.
This Court denied certiorari review when Mr. Johnston petitioned from his
denial of Hurst/Caldwell relief from the state courts. Johnston v. Florida, 139 S. Ct.
481 (2018). But Justices Thomas and Sotomayor referenced their concurrence and
dissent, respectively, in Reynolds. And in neither of those writings did the Justices
mention retroactivity vel non as a basis for their positions. Thus, the retroactivity
issue remains unresolved by this Court, not only in Knight, but in this case.

12

Mr. Johnston advances the Caldwell question with the additional weight of
expert evidence, testimony and opinion, that his jury was unconstitutionally
influenced by the 65 comments of the court and prosecution and faulty instructions
based on Hurst. As illustrated in the numerous examples cited in Dr. Moore’s report
in his Caldwell-based content analysis of Mr. Johnston’s trial transcripts, the case
at bar clearly does not pass Eighth Amendment scrutiny (see Appendix C and
discussion later herein).
Caldwell reversed a death sentence based on a prosecutor’s isolated
comments during closing arguments. The Court concluded in Caldwell:
This Court has always premised its capital punishment decisions on
the assumption that a capital sentencing jury recognizes the gravity of
its task and proceeds with the appropriate awareness of its “truly
awesome responsibility.” In this case, the State sought to minimize the
jury’s sense of responsibility for determining the appropriateness of
death. Because we cannot say that this effort had no effect on the
sentencing decision, that decision does not meet the standard of
reliability that the Eighth Amendment requires. The sentence of death
must therefore be vacated. Accordingly, the judgment is reversed to the
extent that it sustains the imposition of the death penalty, and the
case is remanded for further proceedings.
Id. at 341. By ignoring the established Eighth Amendment mandates of Caldwell
and unreasonably finding harmless error in cases with unanimous
recommendations, the Florida Supreme Court leaves clearly established Eighth
Amendment violations unrectified.
The case at bar is distinguishable from Caldwell because Caldwell only
presented one instance of the jury’s role being diminished. This case presents sixtyfive instances of the jury’s role being diminished. For example, early in the jury

13

selection instructions and continuing through voir dire, Mr. Johnston’s jury was
informed: “Once a jury is sworn in this case to try the defendant, if he is found
guilty of the crime of First Degree Murder, after that, the jury will be asked to give
a recommendation to the Court on penalty.” (see Appendix. C, pg. App 033 – Trial
Transcript pg. 24). Later the advisory panel was informed: “As you have been told,
the final decision as to what punishment shall be imposed is the responsibility of
the judge.” (see Appendix C, pg. App 036 – Trial Transcript pg. 1806). Before the
advisory panel retired for deliberations at the penalty phase they were informed:
“When you have reached an advisory sentence in conformity with these
instructions, that form of recommendation should be signed by your foreperson and
returned to the court.” (see Appendix C, pg. App 035 – Trial Transcript pg. 1813).
All 65 examples from the trial transcripts clearly illustrating the advisory panel’s
secondary role are appended to Dr. Moore’s report (Appendix C).
An advisory verdict (premised upon inaccurate information regarding the
binding nature of a life recommendation, the juror’s inability to be merciful based
upon sympathy, and what aggravating factors could be found and weighed in the
sentencing calculus) cannot be used as a substitute for a unanimous verdict from a
properly instructed jury. California v. Ramos, 463 U.S. 992, 1004 (1983) (“Because
of the potential that the sentencer might have rested its decision in part on
erroneous or inaccurate information that the defendant had no opportunity to
explain or deny, the need for reliability in capital sentencing dictated that the death
penalty be reversed.”). Caldwell is clear on this point: “the uncorrected suggestion

14

that the responsibility for any ultimate determination of death will rest with others
presents an intolerable danger that the jury will in fact choose to minimize the
importance of its role,” in contravention of the Eighth Amendment. 472 U.S. at 333.
The Florida Supreme Court’s steadfast refusal to properly apply this Court’s explicit
precedent undermines multiple federal constitutional rights and makes this petition
the ideal vehicle to clarify the analytical tension in critical areas of this Court’s
jurisprudence.
As the Florida Supreme Court acknowledged in Hurst v. State, “[b]ecause
there was no interrogatory verdict, we cannot determine what aggravators, if any,
the jury unanimously found proven beyond a reasonable doubt. We cannot
determine how many jurors may have found the aggravation sufficient for death.
We cannot determine if the jury unanimously concluded that there were sufficient
aggravating factors to outweigh the mitigating circumstances.” 202 So. 3d at 69.
This Court has stated that it cannot rely upon a legally meaningless
recommendation by an advisory jury. Hurst v. Florida, 136 S. Ct. at 622 (Sixth
Amendment cannot be satisfied by merely treating “an advisory recommendation by
the jury as the necessary factfinding” required by Ring).
It is difficult to comprehend how Florida can claim that its standard jury
instructions, part and parcel of an unconstitutional statute, are not harmful errors
that affected every single death sentence since Ring, until the statute was altered
due to Hurst. It is reflective of Florida’s arbitrary and misguided application of this
Court’s precedent.

15

The Florida Supreme Court believes that because the jury instructions
accurately described Florida’s then-unconstitutional understanding of the role of the
jury, that there is no Caldwell error now when it treats this unconstitutional
recommendation as binding. Florida cannot repeatedly instruct the jury that its
findings are not final and then treat them as final. Not only did Florida’s standard
jury instructions explicitly state that the jury was making a recommendation and
did not inform them of their factfinding capacity, an error under Ring and Hurst,
but it also informed the jury that the judge was the final authority as to the
sentence to be imposed. In other words, their decision was not binding, and the jury
was aware of that fact. This is a direct violation of Caldwell where “it is
unconstitutionally impermissible to rest a death sentence on a determination made
by a sentencer who has been led to believe that the responsibility for determining
the appropriateness of the defendant’s death sentence rests elsewhere.” Caldwell,
472 U.S. at 328-29.
Further, the Florida Supreme Court places an almost talismanic significance
in a jury recommendation that was unanimous. “[W]e emphasize the unanimous
jury recommendations of death.” Davis v. State, 207 So. 3d 142, 174 (Fla. 2016). In
essence, “because here the jury vote was unanimous, the [Florida Supreme Court] is
comfortable substituting its weighing of the evidence to determine which
aggravators each of the jurors found. Even though the jury unanimously
recommended the death penalty, whether the jury unanimously found each

16

aggravating factor remains unknown.” Davis v. State, 207 So. 3d 142, 175-76 (Fla.
2016) (Perry, J. concurring in part and dissenting in part).
Mr. Johnston’s penalty phase advisory panel recommended death by a vote of
12 to 0 and did not return verdicts making any findings of fact. Although these
recommendations were unanimous, they reflect nothing about the jury’s findings
leading to the final vote. A final 12 to 0 recommendation does not necessarily mean
that the other findings leading to the recommendation – that there were
aggravators, that the aggravators rose to the level of warranting death, and that
the mitigators did not outweigh the aggravators -- were unanimous. It could well
mean that after the other findings were made by a majority vote, jurors in the
minority acceded to the majority’s findings. It simply cannot be said that all the
jurors agreed as to each of the necessary findings for the imposition of the death
penalty. The unanimous votes could also mean the jurors did not attend to the
gravity of their task, as they were told the judge could impose death regardless of
the jury’s recommendations. This also impermissibly relieved jurors of their
individual responsibility.
Whether “a conviction for a crime should stand when a State has failed to
accord federal constitutionally guaranteed rights is every bit as much of a federal
question as what particular federal constitutional provisions themselves mean,
what they guarantee, and whether they have been denied.” Chapman v. California,
386 U.S. 18, 21 (1967). In fulfilling its “responsibility to protect” federal
constitutionally guaranteed rights “by fashioning the necessary rule[s],” id., this

17

Court has distinguished between two classes of constitutional errors: trial errors
and structural errors. United States v. Gonzalez-Lopez, 548 U.S. 140, 148 (2006).
Florida jury instructions diminished the jury’s sense of responsibility
throughout the sentencing process, including during any jury determination of
whether Mr. Johnston was eligible for the death penalty. The instructions indicated
that the jury’s input – including its “findings” – into the sentencing process was not
binding or controlling. In particular, those instructions conveyed that the jury’s
input was not binding on the trial court. Instead, the judge made “the final
decision.” The fact finding, which was not done by a jury, was fundamentally flawed
and simply rubber stamped by Florida.
In Mr. Johnston’s case, the jury was able to agree unanimously to a death
sentence, but the record holds no clues as to what - if any - findings the jury may
have made. Further, their recommendation was admittedly flawed because the jury
was unable to fulfill its statutory role-- even under the unconstitutional scheme
Florida had in place -- because they were unable to determine if sufficient
mitigating circumstances exist which outweigh the aggravating circumstances.
The state courts should have considered the expert evidence of Caldwell
error. Instead, the state courts barred sound, scientific, sociological evidence
confirming that the errors in the Mr. Johnston trial were harmful. They did so in
contravention of Frye v. United States, 293 F. 1013 (D.C. Cir. 1923).
Dr. Moore concluded on page 4 of his report that “Based on the socio-legal
standard established in Caldwell v. Mississippi we may conclude to a reasonable

18

degree of sociological certainty the jury which recommended a sentence of death for
Mr. Johnston in Johnston v. State was persuaded against the requisite level of
attention to its responsibility through comments made by the court and prosecutor.”
(see Appendix C).
On one front, the lower state court ruled that Dr. Moore’s report was barred
under Frye v. United States, 293 F. 1013 (D.C. Cir. 1923). (See Appendix K,
Hillsborough County Circuit Court pleadings and testimony related to Dr. Moore’s
evidence). The lower court’s striking of Dr. Moore resulted in due process violations
and denial of access to the courts. The Florida Supreme Court failed to cure this
error on appeal; the opinion did not even mention the specific claim on appeal that
the lower court improperly Frye-barred Dr. Moore’s evidence. The entirety of the
Florida Supreme Court’s decision was thus:
Mr. Johnston received a unanimous jury recommendation of
death and, therefore, the Hurst error in this case is harmless beyond a
reasonable doubt. See Davis v. State, 207 So. 3d 142, 175 (Fla. 2016).
Additionally, we affirm the denial of Mr. Johnston’s Hurst-induced
Caldwell claim. See Reynolds v. State, No. SC 17-793, -- So. 3d --, [] slip
op. at 26-26, 2018 WL 1633075, at *10-12 (Fla. Apr. 5, 2018).
Johnston v. State, 246 So.3d 266, 266 (Fla. 2018).
The Florida state courts should have considered the following evidence:
Dear Mr. Hendry:
You have asked me to evaluate the trial transcript of the sentencing
phase in Johnston v. State, 841 So.2d 349 (2002) from a social science
perspective based on guidance derived from Caldwell (footnote
omitted). A simple method of applying a non-legal perspective to this
transcript is to conduct a content analysis of the text in terms of two
principles in Caldwell which frame the inquiry you seek:

19

“It is constitutionally impermissible to rest death a
sentence on a determination made by a sentencer who has
been led to believe that responsibility for determining the
appropriateness of defendant’s death rests elsewhere.”
(footnote omitted).
“There are specific reasons to fear substantial
unreliability as well as bias in favor of death sentences
where there are state-induced suggestions that the
sentencing jury may shift its sense of responsibility to an
appellate court.” (footnote omitted).
The results of this analysis are summarized in Table I, attached at
Tab A.
Method. “Content Analysis” is a methodology common to many
disciplines in the social and behavioral sciences including Sociology,
Psychology, Social Psychology, Information and Library Sciences.
Typically, it is used for the evaluation of text, video, audio and other
observational data and may include both qualitative, quantitative and
mixed modes of research frameworks. (footnote omitted). At its most
fundamental level, the technique provides a systematic means of
codifying and counting references based on explicit coding standards
executed by multiple coders. “Basic content analysis relies mainly on
frequency counts of low-inference events that are manifest or literal
and that do not require the researcher to make extensive interpretive
judgements.” (footnote omitted).
A panel of four coders read the trial transcript and recorded
observations which fit any of the following categories derived from
Caldwell:
* Any suggestion the jurors might make with respect to the ultimate
recommendation for punishment can be corrected on appeal by the
sitting judge, appellate court or executive decision-making; or,
* Any suggestion that only a death sentence and not a life sentence
will subsequently be reviewed; or,
* Any uncorrected suggestions the jury’s responsibility for any ultimate
determination of death will rest with others, e.g. an alternative
decision maker such as the judge or a higher state court.
....
Results. Table I identifies 65 sentence-long statements by Judge
Diana M. Allen, the State Prosecutor, Jay Pruner, or, by jurors who
directly or implicitly repeated questions posed by the State during voir
dire which the coders found to fit the categories described above. On
their face, these sentences appear to diminish the role of jurors or the
jury as the final arbiter of the punishment in accord with existing

20

Florida law. A total of 61 sentences or 94% directly reflected the
juror’s inferior position in setting punishment while 4 or 6% implicitly
asserted sentencing would actually be determined by some other party.
Finally, 43% (28) of these statements were made to the jury before the
trial began and 57% (37) were made after the presentation of evidence
concluded. (See Table I at Tab A.)
Analysis. These results are not surprising given that Florida law
directly tasked the sitting judge in the trial with the actual sentencing
decision in death penalty cases.
....
Conclusion. Based on the socio-legal standard established in
Caldwell v. Mississippi we may conclude to a reasonable degree of
sociological certainty the jury which recommended a sentence of death
for Mr. Johnston in Johnston v. State was persuaded against the
requisite level of attention to its responsibility through comments
made by the court and prosecutor.
Appendix C (pg. App 028-031), 4/13/2017 Trial Practices, Inc. Report.
The instant case is a post-Ring unanimous death recommendation that
should have been afforded Hurst relief because the sixty-plus errors that occurred at
trial were harmful, not harmless. The Petitioner hoped to have the Florida courts
consider the testimony of Dr. Moore because death is different. Mr. Johnston should
have had the full opportunity to present all relevant evidence tending to show the
Florida courts that the errors that occurred at his trial were harmful.
At page 2 of 6 of the 6-15-17 amended order granting the state’s motion to
strike Dr. Moore’s evidence, the state circuit court stated that “In response,
Defendant argues that Dr. Moore’s report is ‘full of facts necessary for this court to
consider.’” (Appendix K at App 092). Mr. Johnston stated much more than that in
the response. Specifically, he stated that “Dr. Harvey Moore’s report is full of facts
necessary for this Court to consider and analyze if it is to conduct a robust analysis

21

of Mr. Johnston’s Eighth Amendment claims, one that comports with due process.”
Mr. Johnston submits that the failure to consider the evidence resulted in violations
of his due process rights. There was no robust analysis conducted of Mr. Johnston’s
Eighth Amendment claims.
At page 2 of 6 of that order (Appendix K at App 092), the court stated: “In
Florida, novel scientific methods are admissible when the relevant scientific
community has generally accepted the reliability for the underlying theory or
principle.” The content analysis did not employ novel scientific methods. Content
analysis of legal authority is a not a new or novel scientific principle. It has been
around since at least 1948. See Content Analysis -- A New Evidentiary Technique,
University of Chicago Law Review, Vol. 15 No. 4, pp. 910-925 (Summer of 1948); see
also Systematic Content Analysis of Judicial Opinions, 96 Cal. L. Rev. 63 (2008).
At page 4 of 6 of the order, the court stated, “After reviewing the State’s
motion, Defendant’s response, and the evidence and argument presented at the May
18, 2017, hearing, the Court finds that Dr. Moore’s testimony is not needed to
resolve the outstanding issues in Defendant’s Rule 3.851 motion.” (Appendix K at
App 094)
If the court was inclined to grant relief from the death sentence, the
Petitioner would have agreed with that. But since the court was inclined to find the
Hurst and Caldwell errors harmless in this case, Dr. Moore’s testimony was in fact
needed. Mr. Johnston had a right to access to the courts to present evidence in
support of his claims. See In re: Amendments to the Florida Evidence Code, 210 So.

22

3d 1231, 1239 (Fla. 2017) (The Florida Supreme Court, citing “concerns includ[ing]
undermining the right to a jury trial and denying access to the courts,” opted to
“decline to adopt the Daubert Amendment [ ] due to [ ] constitutional concerns.”).
At page 5 of 6 of the order, the court stated, “The Court does not take issue
with the use of content analysis as a means of researching and collecting data.
However, there was little to no evidence presented to show that content analysis is
widely accepted or used as a means to investigate a trial for biased language or
undue influence.” (Appendix K at App 095). In making this finding, the court
overlooked the article entitled Taking Caldwell v. Mississippi Seriously: The
Unconstitutionality of Capital Statutes that Divide Sentencing Between Judge and
Jury, 30 B.C. L. Rev. 283 (1989) (Asst. Professor at Vermont Law School, concluding
after reviewing extensive studies and research, including mock trial studies: “The
Caldwell Court set out a strict test for determining whether diminished sentencer
responsibility so inheres in a sentencing procedure so as to render it constitutionally
invalid: ‘Because we cannot say that this effort had no effect on the sentencing
decision, that decision does not meet the standard of reliability that the Eighth
Amendment requires.’ [Caldwell at 341]. There is, simply no way, that one can
confidently conclude that the [ ] statutes of Alabama, Florida, and Indiana do not
yield such a result. Such a degree of unreliability in a capital sentencing scheme is
constitutionally unacceptable.”).
This article was acknowledged and mentioned by Dr. Moore in his 5-15-17
testimony at transcript pages 20-21 (Appendix K at App 127-128). In the law review

23

article, illustratively as far back as 1989, Michael Mello used content analysis to
investigate trials in Alabama, Indiana, and Florida for biased language and undue
influence in light of a comparison of the selected trials to the Caldwell decision.
Another compelling article, Systematic Content Analysis of Judicial Opinions,
96 Cal. L. Rev. 63 (2008), confirms that content analysis of legal authority continues
to be both widely accepted and used to analyze legal authority and legal cases.
Hurst v. Florida was released January 12, 2016, more than four years ago. Hurst
and its progeny will surely be the topics of continued research and continued
content analysis. The Florida courts should not have overlooked Dr. Moore’s report
and the Caldwell errors that occurred in this case, especially considering the
holdings of Hurst v. Florida (2016). The record before the Florida courts was full of
evidentiary support for the admission Dr. Moore’s evidence. All prongs of Frye for
admissibility of Dr. Moore’s evidence were met by Mr. Johnston.
At page 5 of 6 of the order, the court found “that even if Dr. Moore’s
testimony and methods could meet the required standards, his testimony is still
inadmissible as it enters into the purview of the Court’s decision-making authority.”
(Appendix K at App 095). Just because the trier of fact has the ability to make a
decision on a factual and legal question does not mean that expert evidence is
inadmissible because it might “invade” the purview of the factfinder. The parties
have the right to present evidence, especially in a death penalty case. To deny the
parties the opportunity to present their case is denial of access to the courts.
Because death is different, the Florida courts should have at least afforded Mr.

24

Johnston an opportunity to present evidence in support of his harmful error
arguments.
The Fifth Amendment provides in relevant part: “No person shall be . . .
deprived of life, liberty, or property without due process of law.” At a minimum, the
State of Florida clearly violated Mr. Johnston’s Fifth Amendment due process rights
after this Court issued Hurst v. Florida (2016). It is simply unfair for the courts of
the State of Florida to mandate that errors are per se harmless in cases with 12-0
advisory recommendations, while refusing to even consider sound, scientific,
generally accepted sociological evidence to the contrary based on a content analysis
of Caldwell. The scientific evidence and treatises presented in the state courts
proving harmful errors at this trial are reliable; in contrast, the unanimous
advisory recommendation from an inadequately and unconstitutionally instructed
advisory panel is not a reliable indicator of harmless error.
The federal courts should reach the Caldwell question raised by Hurst. The
question of federal retroactive application of Hurst under the circumstances in Mr.
Johnston’s case (and the cases of dozens if not hundreds of similarly situated
Florida death row inmates) remains unresolved. That question should be answered
to allow application of Hurst to some or all of the remaining prisoners on death row
under principles of the Equal Protection clause and fundamental fairness after
recognition that Florida’s sentencing scheme, until remedies made after Hurst, was
fatally flawed from its inception, and compounded by the mal-instructions and
improper arguments presented to the juries.

25

WITNESS DIANE BUSCH
The Eleventh Circuit limited its review to the question of ineffective
assistance of trial counsel for failure to investigate and call Diane Busch as a
witness at the guilt and penalty stages of trial. Ms. Busch testified that she had met
Mr. Johnston at a church in 1997. She said they had dated on several occasions, and
that Mr. Johnston had treated her like a perfect lady, had entertained her and her
children, and had always paid for the outings. He never asked her for money.
She fell ill with a severe asthma attack which required hospitalization for
four months. Mr. Johnston was with her when she had the attack, assisted until she
was transported to the hospital, and managed her hospital care. While she was
hospitalized, Mr. Johnston had access to her house, her credit cards, and her car. At
one point he accompanied a friend of hers to the house to recover $10,000 in cash
she had hidden there, and he assisted in getting the money into the bank. There
was additional testimony from Ms. Busch establishing Mr. Johnston’s honesty and
caring nature. She said he saved her life when, early in the hospitalization, her
body was shutting down from organ failure and Mr. Johnston instigated a change of
hospitals and pressed medical personnel to recognize and treat the condition,
avoiding her death.
Ms. Busch was still in the hospital when she learned Mr. Johnston had been
arrested for murder. Police interviewed her and developed some negative
information such as Mr. Johnston using abusive language to her family, and that
she had asked hospital personnel to keep Mr. Johnston out of her ICU room because

26

she felt things were out of control. In the state postconviction hearing, she said she
did not recall telling police much of the negative information.
Ms. Busch was available to testify, but defense counsel never contacted her.
Mr. Johnston testified he told counsel to contact her because of the positive
information she could provide.
Mr. Johnston urged that his case was fatally prejudiced by ineffective counsel
because:
1. At guilt phase, Ms. Busch’s testimony would show he was compassionate and
caring during the medical emergency at her house and her hospitalization.
This would have refuted the brutal characterization of the attack and murder
of the victim.
2. At guilt phase, testimony about the money matters would have shown Mr.
Johnston did not need to kill the victim for pecuniary gain. He had access to
Ms. Busch’s checks and credit cards, and, until she told her friend who
assisted in retrieving the $10,000 cache, only she and Mr. Johnston knew
where it was located, yet he did not take the money or access the checks or
credit cards.
3. Ms. Busch trusted Mr. Johnston with her life. He stayed with her during the
initial emergency and pressed for additional diagnosis and treatment which
revealed her esophagus had been ruptured during intubation by the EMTs.

27

4. The fact that Mr. Johnston was in a relationship with Ms. Busch, an
attractive businesswoman, would refute the State’s contention at trial that
the victim would not have dated Mr. Johnston.
5. These and other factors would have created a reasonable doubt in the guilt
phase, where most of the evidence was circumstantial and Ms. Busch’s
testimony was substantial and factual.
6. Her testimony in the penalty phase would have shown the caring and
compassionate side of Mr. Johnston, which could have convinced one or more
of the jurors to reject a death recommendation.
7. Her testimony in the penalty phase would have refuted the State’s theory
that Mr. Johnston had a bondage and discipline fetish with women. Ms.
Busch would have shown he was respectful and caring with women, he was
not always predisposed to abuse or mistreat women. Her evidentiary hearing
testimony credited Mr. Johnston with saving her life while she was in a
serious medical crisis.
8. Mr. Johnston’s actions in saving Ms. Busch’s life during her medical
emergencies could have convinced one or more jurors to reject a death
recommendation. Also, if doubt raised by her testimony in the guilt phase
was insufficient to rise to a reasonable doubt, it still could have motivated
one or more jurors to reject a death recommendation.
9. Finally, had Ms. Busch testified, Mr. Johnston would have been acquitted, or,
if the trial went to a penalty phase, Mr. Johnston would not have chosen to

28

testify and falsely confess in an attempt to curry favor or sympathy with the
jury as Ms. Busch’s testimony would have been sufficient.
The Eleventh Circuit focused on the negative information in the police
reports of the interview with Ms. Busch and their investigation. How much negative
information could have been presented from Ms. Busch, and the degree to which it
might have actually supported the mental health mitigation case, are issues that
would have to be alleged and presented to the district court on a remand. Sears v.
Upton, 561 U.S. 945 (2010).
The Eleventh Circuit ignored the question of whether counsel was deficient
in failing to develop and call Ms. Busch. Instead, the court focused on victim impact
evidence and the prejudice element of the ineffective assistance paradigm and found
that there was no prejudice.
The Eleventh Circuit focused solely on the prejudice prong. Due process
requires the court to have been properly informed with the evidence of the 65
instances of Caldwell misdirection embodied in the expert’s report. Even if the
improper comments and instructions did not rise to the level of a Caldwell Eighth
Amendment violation, they should have been factored into the weighing of prejudice
– a jury instructed it had a reduced responsibility in sentencing, presented with the
mitigation evidence from Ms. Busch, would not have unanimously voted to
recommend death. As the only reason for affirming was lack of prejudice, the
Eleventh Circuit’s deliberate refusal to allow further evidence establishing
prejudice, alone, requires remand to allow the evidence to be addressed.

29

QUESTION TWO
Whether the Florida Supreme Court’s decision in State v. Poole, ___ So.3d ___,
2020 WL 3116597 (Fla. 2020), undermines the rationale of the Eleventh Circuit
in this case when the circuit court limited its scope of review and when it
affirmed the decision of the district court.
The Florida Supreme Court altered Florida’s capital sentencing scheme to be
consistent with this Court’s decision in Hurst v. Florida, 577 U.S. ___, 136 S. Ct.
616 (2016). The change was set out in Hurst v. State, 202 So.3d 40 (Fla. 2016). The
decision eliminated the unconstitutional assignment of all sentencing decisions to
the trial judge and required the jury to unanimously concur at every step of the
capital sentencing paradigm:
[B]efore the trial judge may consider imposing a sentence of death, the
jury in a capital case must unanimously and expressly find all the
aggravating factors that were proven beyond a reasonable doubt,
unanimously find that the aggravating factors are sufficient to impose
death, unanimously find that the aggravating factors outweigh the
mitigating factors, and unanimously recommend a sentence of death.
202 So. 3d at 57.
Four years later, the Florida Supreme Court receded almost in its
entirety from the Hurst decision:
It helps first to consider Hurst v. Florida in light of the
principles underlying the Supreme Court’s capital punishment cases.
Those cases “address two different aspects of the capital decisionmaking process: the eligibility decision and the selection
decision.” Tuilaepa v. California, 512 U.S. 967 (1994). As to the
eligibility decision, the Court has required that the death
penalty be reserved for only a subset of those who commit
murder. “To render a defendant eligible for the death penalty in a
homicide case, [the Supreme Court has] indicated that the trier of
fact must convict the defendant of murder and find one
‘aggravating circumstance’ (or its equivalent) at either the
guilt or penalty phase.” Id. at 971-72 . . . .
30

By contrast, the selection decision involves determining
“whether a defendant eligible for the death penalty should in
fact receive that sentence.” Tuilaepa, 512 U.S. at 972, 114 S. Ct.
2630. . . . .
Hurst v. Florida is about eligibility, not selection.
....
Section 921.141(3) requires two findings. One is an eligibility
finding, the other a selection finding. The eligibility finding is in
section 921.141(3)(a): “[t]hat sufficient aggravating
circumstances exist as enumerated in subsection (5).” The
selection finding is in section 921.141(3)(b): “[t]hat there are
insufficient mitigating circumstances to outweigh the
aggravating circumstances.”
....
Poole’s suggestion that “sufficient” implies a qualitative
assessment of the aggravator—as opposed simply to finding
that an aggravator exists—is unpersuasive and contrary to this
decades-old precedent. Likewise, our Court was wrong in
Hurst v. State when it held that the existence of an aggravator
and the sufficiency of an aggravator are two separate findings,
each of which the jury must find unanimously. Under
longstanding Florida law, there is only one eligibility finding
required: the existence of one or more statutory aggravating
circumstances.
....
This Court clearly erred in Hurst v. State by requiring
that the jury make any finding beyond the section 921.141(3)(a)
eligibility finding of one or more statutory aggravating
circumstances. Neither Hurst v. Florida, nor the Sixth or
Eighth Amendment, nor the Florida Constitution mandates
that the jury make the section 941.121(3)(b) selection finding or
that the jury recommend a sentence of death.
....
Unanimous Jury Recommendation. The Hurst v. State
requirement of a unanimous jury recommendation similarly finds no

31

support in Apprendi, Ring, or Hurst v. Florida. As we have explained,
the Supreme Court in Spaziano upheld the constitutionality under the
Sixth Amendment of a Florida judge imposing a death sentence even in
the face of a jury recommendation of life—a jury override. It
necessarily follows that the Sixth Amendment, as interpreted in
Spaziano, does not require any jury recommendation of death, much
less a unanimous one. And as we have also explained, the Court in
Hurst v. Florida overruled Spaziano only to the extent it allows a
judge, rather than a jury, to find a necessary aggravating
circumstance. See Hurst v. Florida, 136 S. Ct. at 624.
Even without Spaziano, the Apprendi line of cases cannot be
read to require a unanimous jury recommendation of death. Those
cases are about what “facts”—those that are the equivalent of elements
of a crime—the Sixth Amendment requires to be found by a jury.
Sentencing recommendations are neither elements nor facts.
....
There is no basis in state or federal law for treating as
elements the additional unanimous jury findings and
recommendation that we mandated in Hurst v. State
State v. Poole, ___ So.3d at ___, 2020 WL 3116597 (Fla. 2020) (slip op.
at 10-13) (emphasis added).
What the Poole decision has done is remove the final three of the four Hurst
protections required by the Fifth, Sixth, Eighth, and Fourteenth Amendments:
unanimous jury verdicts on whether the aggravators are sufficient to impose death;
unanimous jury verdicts on whether aggravators are outweighed by the mitigators;
and unanimous jury verdicts recommending death.
The only constitutional protection the Poole court left intact was the initial
step in the four constitutional steps to a death sentence: “a jury unanimously find a
statutory aggravating circumstance beyond a reasonable doubt.” Poole, slip op. at
15. In most death cases, the State charges additional offenses intertwined with the

32

actual act of murder. In Mr. Johnston’s case, the jury found him guilty of
kidnapping, robbery, sexual battery, and burglary of a conveyance with assault.
Conviction for only one violent felony is alone enough to support a death sentence in
Florida. Thus, the contemporaneous crimes of conviction in Mr. Johnston’s case
rendered him “eligible” for the death penalty, yet the trial court went on to find
additional aggravators for which there is no indication the unanimously jury found
beyond a reasonable doubt. The judge thus weighed aggravating factors
unsupported by unanimous jury verdicts beyond a reasonable doubt.
The trial court found 4 aggravators: “(1) the defendant was previously
convicted of violent felonies; (2) the crime was committed while Johnston was
engaged in the commission of sexual battery and a kidnapping; (3) it was committed
for pecuniary gain; and (4) it was especially heinous, atrocious, or cruel.” Johnston,
841 So.2d at 355, n.3. Only 2 of the 4 aggravating factors were found unanimously
beyond a reasonable doubt by a jury. The prior violent felonies were convictions in
prior trials, hence the result of a unanimous jury verdict (arguably, those
convictions should not be aggravators under Caldwell because the juries were not
instructed that their guilty verdicts could pave the way for execution). The
kidnapping and sexual battery were separate convictions during the murder trial
(again, potentially not valid findings for aggravation because of the Caldwell failure
to instruct that guilty verdicts made Mr. Johnston eligible for death).
The pecuniary gain aggravator must be found unanimously and beyond a
reasonable doubt under Poole. The record is silent on the jury’s vote on this factor.

33

Likewise, the heinous, atrocious or, cruel aggravating factor requires a unanimous
verdict beyond a reasonable doubt. Again, the record is silent. If Poole is left to
stand, the courts must eliminate the aggravating factors found only by the judge
and reweigh whether the two remaining aggravators, despite Caldwell, are
sufficient to render Mr. Johnston eligible, that the mitigators do not outweigh the
aggravators, and that he should be sentenced to death.
The Poole decision suggests that capital defendants in the future (if the state
legislature changes the law to follow Poole, much as it did to follow the lead from
Hurst) may well have no jury in the penalty phase if the Poole paradigm prevails.
The State could waive additional aggravators requiring a verdict from the trial jury,
and the jury would be discharged. Also, in light of the Poole decision’s rejection of
any role for the jury as to mitigation, should the jury remain impaneled for some
sort of penalty phase, the State would be able to exclude, in the jury’s penalty
phase, all evidence of mitigation as irrelevant. And the State would be well-served if
it threaded the needle to avoid seeking an aggravator which would even allow
rebuttal evidence sympathetic to the defendant.
Under this new framework of what the constitutions of Florida and the
United States required to protect the rights of Mr. Johnston and all other similarly
situated capital defendants (i.e. those seeking Hurst), the only question, as with Mr.
Poole, is whether a jury found any aggravating circumstance beyond a reasonable
doubt. Once that question is answered, the Hurst inquiry is over.

34

Under this new paradigm of death, all jury verdicts on facts supporting
aggravators (prior violent felony convictions and collateral criminal convictions in
the murder trial) take on more significance than ever. It is the Poole court’s
monomaniacal focus on a jury’s finding of aggravating facts, to the exclusion of the
question of sufficiency and the remaining prongs of the death paradigm, that
requires a reevaluation of any judicial conclusion that the penalty phase in this case
met constitutional requirements. In Mr. Johnston’s case, there is no evidence that
the jury found any fact amounting to or supporting a specific aggravating factor.
Florida’s death sentencing scheme at the time of Mr. Johnston’s trial kept the jury’s
fact basis for recommending death opaque, as there were no detailed verdict forms
to show what the jury found or did not find. The verdict form provided for only the
recommendation for death (or life), and the vote thereon.
What the jury may have found as fact to support any of the aggravators is
and will remain unknown. As such, the failings of trial counsel in handling the jury
issues (the lying criminal jury foreperson and the publicity-tainted jurors) as
alleged in the initial postconviction motion, take on critical significance. It would
take only one juror to have rendered the death recommendation non-unanimous.
Absent a clear indication of the facts required by Poole, it is impossible to know
whether every fact supporting death was unanimously found by the jury, beyond a
reasonable doubt. A plurality vote is just as likely as unanimity for every fact
required to sustain the death penalty in this case, so long as all the jurors agreed

35

that some combination of aggravation and mitigation added up to a death
recommendation.
The Poole case also changes the Hurst/Caldwell analysis. If the Poole
paradigm is to persist, then the jurors were misled even more than the malinstructions contrary to Hurst. The jurors should have been told they had to
unanimously find facts beyond a reasonable to support each aggravator, without
regard to whether the aggravator was sufficient to make the defendant eligible for
the death penalty. They would have been told their unanimous verdicts on facts in
the penalty phase would have little to no direct influence on whether Mr. Johnston
would be sentenced to death. As with Hurst, times three, their fact-finding was only
the first step in a process that lay solely in the hands of the trial judge. The jury
could be told: “Don’t worry if you don’t think, for instance, that the ‘heinous,
atrocious, or cruel’ facts would justify executing Mr. Johnston, your only task is to
find if there are facts. The judge will take those facts, and some other facts that
are not for you to find, or even know the nature of. The judge will do some more
things, none of which you can or even legally are allowed to know or consider. Then
the judge, not you, the jury, will decide whether to kill Mr. Johnston. Nothing you
say or do may ultimately lead to Mr. Johnston’s sentence, life or death.”
Eliminating all other aspects of the sentencing paradigm makes it critically
important, pursuant to Caldwell, that the jury be told, from jury selection onwards,
that their verdicts on the collateral crimes will be used to decide whether Mr.
Johnston will be sentenced to death. The jury needs to be told that their decisions

36

on the collateral offenses may be the end of their contributions to the sentencing
and they could be released after the verdict. The jury needs to be told that the trial
for guilt, and their unanimous verdicts, may inherently embody elements as to
whether the conviction for murder will result in a death sentence.
The 65 instances of misdirection found by Dr. Moore in the Hurst contact
would appear to be a major undercount, once the trial is examined for deviations
from the Poole paradigm.
Remand to the Eleventh Circuit is necessary for the court to reevaluate its
finding that there was no prejudice arising from the failure to investigate and call
Ms. Busch. Prejudice under Poole, with its requirement for unanimous fact finding,
arises if even one juror might have been swayed by Ms. Busch on one or more of the
facts supporting conviction and the sentencing recommendation.
Ms. Busch’ testimony in the guilt phase might have persuaded one or more
jurors that Mr. Johnston did not kill the victim for money, that his post-homicide
use of the victim’s ATM card was a crime of opportunity rather than a motive for
murder. This could have caused one or more jurors to favor conviction for theft
rather than robbery and might also have caused one or more jurors to favor a lesser
homicide conviction, e.g. second degree. A juror might especially be likely to favor a
theft conviction if they had known it could not be used to support an aggravating
factor (pecuniary gain).
Over several decades, Florida’s courts have disregarded this Court’s
mandates to ensure constitutionally sound capital sentencing procedures. Florida

37

has arguably violated the mandates of Caldwell (1985) for 35 years. Florida spent
years attempting to thread the needle to survive the mandates of Ring (2002). Then,
after this Court called the State of Florida on said perseverations in Hurst (2016),
Florida once again has disregarded further mandates with this year’s reinstatement
of the post-Hurst vacated death sentence in Poole.
Questions of retroactivity of Hurst applied to this case should not even be an
issue because Mr. Johnston’s advisory panel was advised 65 times contrary to
Caldwell (1985) that they would not be making the life or death decision, the court
would. Evolving standards of decency of a maturing society should include a
recognition that Florida has violated Caldwell for decades, and include a mandate
that all Florida death sentences the state obtained contrary to Caldwell should be
ordered vacated under the Sixth Amendment, the Eighth Amendment, or both. The
Court should not permit the State of Florida to continue to execute individuals who
were clearly sentenced to death under an unconstitutional system.
The Eleventh Circuit engaged in substantial speculation as to what a juror
might think about the evidence from Ms. Busch, including how much possibly
negative information arising from Ms. Busch’s appearance would have been
admitted. Unfairly, a majority of the opinion was devoted to victim impact evidence
and cumulative negative information. On a remand, if the appeal remains limited to
the Busch evidence, the Eleventh Circuit should be compelled to speculate in light
of the new Poole standard.

38

Even if this Court finds Poole has strayed from the “labyrinthine restrictions
on capital punishment promulgated by this Court,” Glossip v. Gross, 576 U.S. ___,
___, 135 S. Ct. 2726, 2749 (2015) (Scalia, J., concurring), quoted in Reynolds, 586
U.S. ___, 139 S. Ct. 27, 31 (2018) (Thomas, J., concurring in denial of cert.), the
intermediate and thus controlling paradigm of Hurst v. State compels remand to the
Eleventh Circuit for remand to the district court to allow amendment and
development of the Hurst and Caldwell claims, or reevaluation by the Eleventh
Circuit of its limitation in its certificate of appealability and on its reasoning.
Even if Poole is left to define incredibly limited constitutional protections,
remand is necessary to allow amendment of the habeas petition in district court, or
reevaluation of the certificate of appealability and the decision in the Eleventh
Circuit.
CONCLUSION
Two cases that will be pending before this Court this term raise critical
issues challenging the legitimacy of the Eleventh Circuit’s decisions in this case.
The Eleventh Circuit’s refusal to allow remand or amendment to address the Hurst
and Caldwell issues was grounded on Knight v. Fla. Dep't of Corr., 936 F.3d 1322
(11th Cir. 2019). Knight is pending before this Court on the question of federal
Hurst retroactivity. If Knight is reversed, the Eleventh Circuit’s rationale for
denying remand or amendment is eliminated. At least one judge on the circuit panel
favors reaching the Hurst/Caldwell claims and, perhaps, additional judges en banc
might be predisposed to reach the matter. Even if a Caldwell reversal is not

39

compelled in this case, the prejudice arising from the improper jury instructions
should be addressed in the Eleventh Circuit’s analysis of prejudice regarding Busch.
The second case is State v. Poole, ___ So.3d ___, 2020 WL 3116597 (Fla. 2020).
Counsel in the instant case is secondarily involved in preparing a certiorari petition
in Poole, but an earlier deadline has compelled filing the instant petition first. Poole
has eliminated the rationale the Eleventh Circuit used to justify denying relief in
this case. If Poole is allowed to stand, the Eleventh Circuit must either be reversed,
or remand must issue to require the circuit to reconsider in light of Poole. Actually,
Poole so fundamentally alters the Hurst analysis that it may be impossible for the
federal courts to address Hurst claims without a return first to the state labyrinth
to reconsider Mr. Johnston’s claims.
Finally, the expert evidence addressing a Caldwell violation in the context of
Hurst provides an enhanced opportunity to address Caldwell claims which are
apparent on the face of the record and confirmed by expert evidence.
The petition for a writ of certiorari should be granted.
Respectfully submitted,
/s/David D. Hendry
David D. Hendry
Florida Bar Number 0160016
Office of the Capital Collateral Regional Counsel –
Middle Region
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
Phone No. (813) 558-1600 ext. 624
Fax No. (813) 558-1601
hendry@ccmr.state.fl.us
Attorney of Record for Petitioner

40

